      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                           Washington, D.C. 20201




February 22, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited-Scope Review at Mid-Columbia Children’s Council, Inc., for
               the Head Start and Early Head Start Programs (A-09-09-00097)


The attached final report provides the results of our limited-scope review of Mid-Columbia
Children’s Council, Inc. (Mid-Columbia), for the Head Start and Early Head Start programs.
The Administration for Children and Families (ACF), Office of Head Start, requested this review
as part of its overall assessment of Head Start grantees that have applied for additional funding
under the American Recovery and Reinvestment Act of 2009 (Recovery Act).

President Obama signed the Recovery Act into law on February 17, 2009. The Recovery Act
includes measures to modernize our Nation’s infrastructure, enhance energy independence,
expand educational opportunities, preserve and improve affordable health care, provide tax
relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and Departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

The objectives of our limited-scope review were to determine whether (1) Mid-Columbia is
fiscally viable and (2) Mid-Columbia’s financial management system adequately managed and
accounted for Federal funds.

Mid-Columbia is fiscally viable. In addition, Mid-Columbia’s financial management system
adequately managed and accounted for Federal funds except for its systems and internal controls
related to property management. Specifically, Mid-Columbia did not perform a physical
Page 2 – Yvette Sanchez Fuentes


inventory of its equipment at least once every 2 years as required by Federal regulations, and
Mid-Columbia’s equipment inventory records did not contain all required information.
In written comments on our draft report, Mid-Columbia acknowledged that it did not complete a
physical inventory of its equipment in the past 2 years as required by Federal regulations.
Mid-Columbia provided information on corrective action that it planned to take to improve its
systems and internal controls related to property management.

In determining whether Mid-Columbia should be awarded additional Head Start and Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing Mid-Columbia’s financial condition.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-09-09-00097 in all correspondence.


Attachment


Nancy Hutchins
Regional Program Manager, Region X
Office of Head Start
Nancy.Hutchins@acf.hhs.gov
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




RESULTS OF LIMITED-SCOPE REVIEW
       AT MID-COLUMBIA
   CHILDREN’S COUNCIL, INC.,
    FOR THE HEAD START AND
  EARLY HEAD START PROGRAMS




                       Daniel R. Levinson
                        Inspector General

                         February 2010
                         A-09-09-00097
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start (including Early Head Start) is a national program that promotes school readiness by
enhancing the cognitive, social, and emotional development of children through the provision of
health, educational, nutritional, social, and other services to enrolled children and families.
Within the U.S. Department of Health and Human Services, the Administration for Children and
Families (ACF) administers the Head Start program. Head Start provides grants to local public
and private nonprofit and for-profit agencies to deliver comprehensive child development
services to economically disadvantaged children and families. Early Head Start promotes
healthy prenatal outcomes, enhances the development of infants and toddlers, and promotes
healthy family functioning.

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5-percent cost-of-living increase and bolster
training and technical assistance activities.

Mid-Columbia Children’s Council, Inc. (Mid-Columbia), a nonprofit agency, operates the Head
Start and Early Head Start programs, which serve infants, toddlers, preschool-aged children,
pregnant women, and families. Programs are located in Hood River, Wasco, and Jefferson
Counties in Oregon and in Skamania and Klickitat Counties in Washington. The agency was
formed in 1987 to provide Head Start services in the Mid-Columbia region.

Mid-Columbia is funded primarily through Federal and State grants. For the fiscal year ended
November 30, 2008, ACF directly provided grant funds to Mid-Columbia totaling $3,528,745 for
its Head Start and Early Head Start programs.

Mid-Columbia was awarded Recovery Act grant funds for the budget period July 1, 2009,
through September 30, 2010, totaling $261,234 for cost-of-living increases and quality
improvement.

OBJECTIVES

The objectives of our limited-scope review were to determine whether (1) Mid-Columbia is
fiscally viable and (2) Mid-Columbia’s financial management system adequately managed and
accounted for Federal funds.

SUMMARY OF FINDINGS

Mid-Columbia is fiscally viable. In addition, Mid-Columbia’s financial management system
adequately managed and accounted for Federal funds except for its systems and internal controls
related to property management. Specifically, Mid-Columbia did not perform a physical
inventory of its equipment at least once every 2 years as required by Federal regulations, and
Mid-Columbia’s equipment inventory records did not contain all required information.

RECOMMENDATION

In determining whether Mid-Columbia should be awarded additional Head Start and Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing Mid-Columbia’s financial condition.

MID-COLUMBIA COMMENTS

In written comments on our draft report, Mid-Columbia acknowledged that it did not complete a
physical inventory of its equipment in the past 2 years as required by Federal regulations.
Mid-Columbia provided information on corrective action that it planned to take to improve its
systems and internal controls related to property management. Mid-Columbia’s comments are
included in their entirety as the Appendix.




                                                ii
                                                   TABLE OF CONTENTS

INTRODUCTION...................................................................................................................1

          BACKGROUND ..........................................................................................................1
            Head Start Program.................................................................................................1
            Mid-Columbia Children’s Council, Inc. .................................................................1
            Requirements for Federal Grantees ........................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY......................................................2
            Objectives ...............................................................................................................2
            Scope.......................................................................................................................2
            Methodology ...........................................................................................................2

FINDINGS AND RECOMMENDATION............................................................................3

          INADEQUATE SYSTEMS AND INTERNAL CONTROLS FOR
            PROPERTY MANAGEMENT .................................................................................3

          RECOMMENDATION ................................................................................................4

          MID-COLUMBIA COMMENTS ................................................................................4

APPENDIX

          MID-COLUMBIA CHILDREN’S COUNCIL, INC., COMMENTS
                                       INTRODUCTION

BACKGROUND

Head Start Program

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start (including Early Head Start) is a national program that promotes school readiness by
enhancing the cognitive, social, and emotional development of children through the provision of
health, educational, nutritional, social, and other services to enrolled children and families.
Within the U.S. Department of Health and Human Services, the Administration for Children and
Families (ACF) administers the Head Start program.

Head Start provides grants to local public and private nonprofit and for-profit agencies to deliver
comprehensive child development services to economically disadvantaged children and families,
with a special focus on helping preschoolers develop the early reading and math skills needed to
be successful in school. Early Head Start promotes healthy prenatal outcomes, enhances the
development of infants and toddlers, and promotes healthy family functioning. Local Head Start
programs engage parents in their children’s learning and emphasize parental involvement in
program administration.

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5-percent cost-of-living increase and bolster
training and technical assistance activities.

Mid-Columbia Children’s Council, Inc.

Mid-Columbia Children’s Council, Inc. (Mid-Columbia), a nonprofit agency, operates the Head
Start and Early Head Start programs, which serve infants, toddlers, preschool-aged children,
pregnant women, and families. Programs are located in Hood River, Wasco, and Jefferson
Counties in Oregon and in Skamania and Klickitat Counties in Washington. The agency was
formed in 1987 to provide Head Start services in the Mid-Columbia region. It has since
expanded its early childhood education programs and learning centers to meet community needs.

Mid-Columbia is funded primarily through Federal and State grants. For the fiscal year ended
November 30, 2008, ACF directly provided grant funds to Mid-Columbia totaling $3,528,745 for
its Head Start and Early Head Start programs. In addition, Mid-Columbia received U.S.
Department of Agriculture passthrough funding for its Child Care Food program from Oregon
totaling $93,897 and from Washington totaling $62,354. Mid-Columbia also received State
grants for its Head Start program from the Oregon Department of Education totaling $649,977
and from the Washington Department of Community Development totaling $130,922.
Mid-Columbia was awarded Recovery Act grant funds for the budget period July 1, 2009,
through September 30, 2010, totaling $261,234 for cost-of-living increases and quality
improvement.

Requirements for Federal Grantees

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the reasonableness, allocability, and allowability
of costs in accordance with the provisions of the applicable Federal cost principles and the terms
and conditions of the award. Grantees must maintain accounting records that are supported by
source documentation and must maintain financial systems that provide for accurate and
complete reporting of grant-related financial data. Grantees are also required to compare outlays
with budget amounts for each award and may use grant funds only for authorized purposes.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The objectives of our limited-scope review were to determine whether (1) Mid-Columbia is
fiscally viable and (2) Mid-Columbia’s financial management system adequately managed and
accounted for Federal funds.

Scope

We conducted our audit for the limited purpose described in the objectives; thus, the audit would
not necessarily have disclosed all material weaknesses. Accordingly, we do not express an
opinion on Mid-Columbia’s overall system of internal accounting controls. We performed
limited tests and other auditing procedures on Mid-Columbia’s financial management system to
assess its ability to administer federally funded projects.

We conducted our fieldwork in July 2009, which included a visit to Mid-Columbia’s
administrative office in Hood River, Oregon.

Methodology

To accomplish our objectives, we:

       reviewed relevant Federal laws, regulations, and guidance;

       reviewed Mid-Columbia’s fiscal procedures related to accounting documentation and
        preparation of financial reports;

       obtained selected Federal grant award documentation to determine Mid-Columbia’s
        Federal funding;




                                                2
      reviewed Mid-Columbia’s audited financial statements for the fiscal years ended
       November 30, 2006, through November 30, 2008;

      reviewed Mid-Columbia’s expense accounts, unaudited financial statements for the
       7-month period ended June 30, 2009, and financial status reports (SF-269) for the fiscal
       year ended November 30, 2008; and

      performed liquidity and stability analyses of Mid-Columbia’s financial records.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATION

Mid-Columbia is fiscally viable. In addition, Mid-Columbia’s financial management system
adequately managed and accounted for Federal funds except for its systems and internal controls
related to property management. Specifically, Mid-Columbia did not perform a physical
inventory of its equipment at least once every 2 years as required by Federal regulations, and
Mid-Columbia’s equipment inventory records did not contain all required information.

INADEQUATE SYSTEMS AND INTERNAL CONTROLS FOR
PROPERTY MANAGEMENT

Mid-Columbia did not maintain adequate systems and internal controls for property management
in accordance with 45 CFR § 74.34(f) and Office of Management and Budget Circular A-110
(2 CFR part 215), subpart C, section __.34(f). These regulations identify the following required
property management standards for equipment acquired with Federal funds and federally owned
equipment:

      accurate equipment records, including a description of the equipment, an identification
       number, the acquisition date, and the condition of the equipment;

      proper identification of equipment owned by the Federal Government;

      physical inventory and reconciliation of equipment records at least once every 2 years;

      a control system to ensure adequate safeguards to prevent loss, damage, or theft of the
       equipment;

      adequate maintenance procedures; and




                                                3
      proper sales procedures, which provide for competition and result in the highest possible
       return.

Mid-Columbia did not perform a physical inventory of its equipment at least once every 2 years
as required by Federal regulations. In addition, Mid-Columbia’s equipment inventory records
did not contain all required information. Specifically, the records for computer equipment did
not identify the Federal award number, serial number or other identification number, acquisition
date, or condition of the equipment (including the date that this information was reported).

In general, Mid-Columbia had policies and procedures to comply with the property management
regulations; however, Mid-Columbia’s management did not ensure that these policies and
procedures were followed. Because Mid-Columbia did not perform a physical inventory of its
equipment at least once every 2 years and maintain adequate equipment management systems,
Mid-Columbia is unable to provide current information about the existence, use, and condition of
its federally funded equipment which totaled $741,094 as of the fiscal year ended November 30,
2008.

RECOMMENDATION

In determining whether Mid-Columbia should be awarded additional Head Start and Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing Mid-Columbia’s financial condition.

MID-COLUMBIA COMMENTS

In written comments on our draft report, Mid-Columbia acknowledged that it did not complete a
physical inventory of its equipment in the past 2 years as required by Federal regulations.
Mid-Columbia provided information on corrective action that it planned to take to improve its
systems and internal controls related to property management. Mid-Columbia’s comments are
included in their entirety as the Appendix.




                                                4
APPENDIX
                                                                                                                                 Page 1 of2


    APPENDIX: MID-COLUMBIA CHILDREN'S COUNCIL, INC., COMMENTS 





                                      October 30,2009


       {lHS
     .. HEAD START.

         OaHO''<l.puTt
        Gotd8nd"'~(1                  U.S. Department of Heahh and Human Services
         Hood 'RIver
          Kli o kitil'
           M-adras
                                      Office of Inspector General
       N. Bonneville
        i'ino Groll a
                                      Region IX
         The Oalloi
        Ty g-h ValJoy                 Office of Audit Services
       Whll('   Sa, ~mon
                                      90 - 7th Street, Suite 3-650
                                      San Francisco, CA 94103


                                      RE: "Results of Limited-Scope Review at Mid-Columbia Children's Council, Inc."
      rfjIEHS                               Written Response to Draft Report Submitted Octoher27, 2009
•   E"R~Y    H.AO     S ~ "R'1'   •
        GoldOll d a 1c                FINDING - Inadequate systems and internal controls for property management
        Hood rUver
        The Oalles 

       Wh i fe S"a:lmon 

                                      AUDITRESULTS PER REPORT:

                                      Mid-Columbia Children's Council did not perfonn a physical inventory of its
                                      equipment at least (}lice every 2 years as required by Federal regulations. In addition,
                                      Mid-Columbia's equipment inventory records did not identify the Federal award
        OPK                           number, serial number or other identification number, acquisition date, or condition
         ,, - ORE GON +
· -- PRE -'KINOERGAA TEN ..           ofthe equipment (inc1udingthe date that this information was reported).
       • _PROGRAM'

         P i ne Gr-ove 

           PR-rkdah. 

          Th e Dalle s 

                                      hi general, Mid-Columbia had policies and procedures to comply with the property
                                      management regulations; however, Mid-Columbia' s lilanagement did not ensure that
                                      these policies and procedures were followed. Because Mid-Columbia did not
                                      perf0D11 a physical inventory of its equipment at least once every 2 years and
                                      maintain adequate equipment management systems, Mid-Columbia is llnable to
                                      provide current information about the existence, use, and condition of its federally
     ECEAP                            funded equipment which total $741,094 as of the fiscal year ended November 30,
     • W :ASHING.TQN .. 

.. E :AR-l. Y C tHL O ..i OOO ... 
   2008.
      · - IS_OUCATION· 

     . - ASSISTA~Ce ..
        .. PROGRAM • .




                                                Helping qhlldrenand familil'ls. reach their unique and diverSE! potentials
                                                                                              Page 2 of2




RESPONSE:

Mid-Columbia Children' s Council acknowledges that a physical inventory of its
equipment was not completed in the past2yearsas required by Federal regulations.
Subsequent to the completion of the field work for the audit by the Office of
Inspector General, records were located and indicate the last complete physical
inventory that included all the required information was taken May 12) 2005.

Mid-Columbia Children' s Council, Inc. ' s Fiscal Policies and Procedures Manual state
that " FOT purposes of Federal awa.rd accounting and administration, ' equipment' shall
include all assets with a unit costequal to OT greater than $5,000." It further states that
"The results of the physicaUnventory shall be reconciled to the .accounting records of
and Federal Reports filed by MCCC." All capitalized assets ate maintained in the
special property and equipment account group and are not included as an operating
expense. Property and equipment are depreciated over their estimated usefu1 lives
using the straight-line method. For the year ending November 30, 2008 , MCCC
reported Vehicles and Equipment ofS741 ,094 and depreciatiOll expense ofS156,781.

A detail asset listing in support of the $741,094 repOlted in "Vehicles and
Equipment" exists; however computer equipment referenced in the audit results are
properly excluded because the unit (;(Jst~an; less that $5,000.

CORRECTIVE ACTION:

MCCC accepts the recommendation to takec,mective action to improve its
management systems and internal controls related to property management. The
Agency will be able to provideculTent infonnationabout the existence, use, and
condition of its federally funded equipment which tota1ed $741,094 as of tIscal year
ended November 30, 2008 plus additions during the fiscal year ended November 30,
2009 at the. completion ofa physical inventory scheduled for completion by
December 31, 2009,

An updated Accounting & Financial Policies and Procedures Manual, presently in
draft tonn and expected to be approved byPolicy Council and the Board of Directors
by early December, reaffirms MCCC's commitment to compliance with 45CFR
74.34(f){1 ) and 45 CFR 74.34(£)(3). All staff members ofthe fiscal department have
been with MCCC less than one year and as such, are scheduled to attend a training
conference of "Head Start Issues" presented by Wiptli CPA ' s and Consultants
No\rember 3 through November 5, 2009.

Sincerely;




Matthew Solomon
Executive.Director


                                                                                         2
